CERTIFICATE OF SERVICE
JONATHAN I. EDELSTEIN, an attorney admitted to practice in the courts of the State of
New York and in this Court, affirms under penalty of perjury pursuant to 28 U.S.C. ยง 1746 that the
following is true and correct to the extent of his knowledge:
1.

I am over 18 years old and not a party to this action.

2.

On the 191h day of April 2021, I served the within PETITION FOR WRIT OF

CERTIORARI upon:
New York State Attorney General
28 Liberty Street, 14111 Floor
New York, NY 10005
Attn: Priscilla Steward, Esq.
Being the addresses heretofore designated by them for that purpose, by enclosing three true copies
of the same in a prepaid wrapper and depositing the same in a box designated by the United States
Postal Service for collection and delivery of mail.
3.

In addition, I served a true PDF copy of the aforesaid documents upon the Solicitor

General's office by electronic mail at priscilla.steward@ag.ny.gov.
Dated: New York, NY
April 19, 2021

